No. 20-47

In the
Supreme Court of the United States
LEBAMOFF ENTERPRISES, INC., ET AL.
Petitioners,
v.
GRETCHEN WHITMER, GOVERNOR OF MICHIGAN, ET AL.
Respondents.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33(1)(h), I certify that the Amici Curiae
Brief in Support of the Petition for a Writ of Certiorari complies with the word
limitations in Rule 33(1)(g). It contains 4,480 words, including footnotes, but
excluding sections exempted from the word count by Rule 33(1)(d).
This the 17th day of August 2020.

/s/ J. Gregory Troutman
J. GREGORY TROUTMAN
Counsel of Record
TROUTMAN LAW OFFICE, PLLC.
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9190
jgtatty@yahoo.com
Attorney for Amici Curiae

